No. 19-990

In the Supreme Court of the United States
__________________
SOUTHERN ILLINOIS STORM SHELTERS,
INCORPORATED, et al.,
Petitioners,
v.
4SEMO.COM, INCORPORATED,
a Missouri Corporation,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit

__________________
REPLY BRIEF FOR PETITIONERS
__________________
John L. Gilbert
Counsel of Record
Douglas D. Churovich
Timothy C. Sansone
Cody S. Hagan
SANDBERG PHOENIX
& von GONTARD P.C.
600 Washington Ave., 15th Floor
St. Louis, MO 63101
314-231-3332
314-241-7604 (Fax)
jgilbert@sandbergphoenix.com
Attorneys for Petitioners
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . ii
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
I.

Respondent’s extensive accusations of
misrepresentation are inaccurate, have no
legal impact on certiorari, and should
not dissuade the Court from granting
certiorari. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

II.

Petitioners did not waive their Questions
Presented, because both questions are
matters of pure law pertaining to alternative
grounds in support of federal claims litigated
below. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

III.

Respondent’s attempt to undermine the
Court’s consideration of the McCarthy Test
by parsing between “wholesale” and “retail”
trademarks and distribution is without
merit, as McCarthy’s treatise itself draws no
such distinctions. . . . . . . . . . . . . . . . . . . . . . . 10

IV.

Respondent’s attempt to undermine the
Court’s review of the good faith junior
trademark user doctrine by reiterating the
Seventh Circuit’s dismissive bootstrap
analysis merely underscores the defective
basis of Respondent’s argument. . . . . . . . . . 12

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

ii
TABLE OF AUTHORITIES
CASES
Amcast Indus. Corp. v. Detrex Corp.,
2 F.3d 746 (7th Cir. 1993). . . . . . . . . . . . . . . . . . . 9
Bew v. City of Chicago,
252 F.3d 891 (7th Cir. 2001). . . . . . . . . . . . . 7, 8, 9
Covertech Fabricating, Inc. v. TVM Building
Products, Inc.,
855 F.3d 163 (3d Cir. 2017) . . . . . . . . . . . . . . . 7, 8
Dewey v. City of Des Moines,
173 U.S. 193 (1899). . . . . . . . . . . . . . . . . . 6, 7, 8, 9
Hively v. Ivy Tech Community College of Indiana,
853 F.3d 339 (7th Cir. 2017). . . . . . . . . . . . . . . . . 9
Illinois v. Gates,
462 U.S. 213 (1983). . . . . . . . . . . . . . . . . . . . . . . . 7
Matter of Reese,
91 F.3d 37 (7th Cir. 1996). . . . . . . . . . . . . . . . . . . 9
Yee v. City of Escondido, Cal.,
503 U.S. 519 (1992). . . . . . . . . . . . . . . . . . . . . . 7, 9
OTHER AUTHORITIES
McCarthy on Trademarks §16:48 . . . . . . . . . . . . . . 11

1
INTRODUCTION
Petitioners request the Court review two questions
of federal law pertaining to common law (i.e.,
unregistered) trademarks.
In its Response in
Opposition, Respondent does not dispute the
substantive issues presented and does not dispute the
existence of a split among the Circuit Courts regarding
both Questions Presented.
Apparently unable to identify any legitimate
challenge to Petitioners’ substantive questions,
Respondent instead asserts a smattering of tertiary
allegations of waiver, misguided accusations
concerning Petitioners’ treatment of the record on
appeal, a misreading of the McCarthy Test, and a
skeletal reiteration of the Seventh Circuit’s bootstrap
approach to the good faith junior user doctrine.
Moreover, throughout its entire opposition brief,
Respondent can only muster two legal citations: a lone
sentence in the McCarthy Treatise (p. 8), and a general
citation to Hanover Star (p. 10). And Respondent’s two
main contentions are unsupported by any citations to
case law: (1) certiorari is supposedly improper because
Petitioners purportedly waived their arguments; and
(2) Petitioners purportedly misstate the record. Both
claims are unsubstantiated and misguided, and this
Court should grant certiorari on both of Petitioners’
Questions Presented.

2
ARGUMENT
I.

Respondent’s extensive accusations of
misrepresentation are inaccurate, have no
legal impact on certiorari, and should not
dissuade the Court from granting
certiorari.

Respondent attempts to cast Petitioners in an
unfavorable light with repeated accusations of
misrepresenting the record on appeal.1 Respondent’s
accusations, however, are not only incorrect, they are
backed by no legal authority supporting its contention
that certiorari should be denied.
For five pages of its opposition, Respondent presents
multiple accusations asserting, in essence, that
Petitioners misstate the record by not recognizing what
Respondent declares are findings of fact. (Opp., pp. 15). In reality, what Respondent claims are “findings of
fact” actually comprise conclusions of law or mixed
determinations of law and fact mislabeled as “Findings
of Fact” that are in fact challenged by Petitioners.
First, the headings in the District Court’s Judgment
are not dispositive. Often it is difficult to distinguish
findings of fact from conclusions of law. Here, the
District Court’s “Findings of Fact” section is riddled
with conclusions of law and mixed determinations of

1

Respondent’s opposition is peppered with hyperbole, including
repeated accusations of “false” statements and a “blatant disregard
for the District Court’s Findings of Fact” by Petitioners, which
should all be disregarded by the Court for the reasons stated in
this Reply.

3
fact and law. Notably, Respondent fails to inform the
Court that the subject Judgment was drafted by
Respondent’s counsel, with only minor modification by
the District Court regarding attorneys’ fees. (Doc. 257:2
directing Plaintiff to draft findings of fact and
conclusions of law; compare Doc. 263 [Plaintiff’s
proposed findings of fact and conclusions of law] with
Doc. 277 [District Court’s findings of fact and
conclusions of law]). Hence, the errant cobbling of
conclusions of law with findings of fact—upon which
Respondent bases its accusations—was promulgated by
Respondent itself.
As such, merely because
Respondent chose to erroneously include conclusions of
law under the heading of “Findings of Fact” in the
Judgment, and the District Court did not correct those
errors, does not somehow convert those conclusions of
law into findings of fact, nor does it preclude
Petitioners from challenging such mislabeled
“findings.”
Moreover, though Petitioners do not “contest the
District Court’s factual findings” (Petition, p. 7),
Petitioners never stated they were not challenging
various conclusions of law made below masquerading
as “Findings of Fact.” In fact, Petitioners specifically
stated in their Petition that “the panel commingled and
conflated the District Court’s findings of fact with
conclusions of law.”
(See, e.g., Petition p. 23).
Petitioners have consistently challenged conclusions
mislabeled as “Findings of Fact” in the District Court’s
Amended Judgment.
2

References to “Doc.” refer to the District Court docket as
maintained on PACER.

4
Accordingly, for the reasons stated in the Petition,
and in this Reply, this Court should grant certiorari on
both of Petitioners’ Questions Presented.
For clarity, Petitioners respond to each of
Respondent’s accusations as follows:
a. First, Respondent argues waiver without any
citations to authority. (Opp., p. 1). Furthermore,
Respondent fails to acknowledge, as Petitioners
point out in Argument Section II below, ample case
law from this Court does not limit the Questions
Presented to the exact issues presented below.
b. Respondent next claims “Petitioners falsely and
repeatedly assert that this case involves a wholesale
level trademark created by Respondent … as an
exclusive distributor [for Petitioners]” and then
attempts to distinguish between wholesale and
retail distributors. (Opp., p. 2). But Respondent
provides no citations to the Petition, and the
McCarthy treatise draws no such distinctions.
Actually, Petitioners merely assert that Respondent
was an exclusive distributor, not that the marks
were “wholesale” or “retail” level. (Petition, p. 3).
This issue is discussed in more detail in Argument
Section III below.
c. Respondent next claims that “Petitioners also
falsely assert their use of 4SEMO’s retail marks as
widespread wholesale level marks was use as a good
faith, junior user,” but that such use was “a
knowing, willful and intentional misuse.” (Opp.,
p. 3). Again, Respondent provides no cites to the
Petition, and Petitioners did not so state. Rather,

5
Petitioners challenge the legal conclusion that
Petitioner’s trademark use was a violation of an
agreement between the parties.
d. Respondent next claims that “Petitioners also
falsely state 4SEMO created and became owner of
both [marks] after entering into an agreement with
Petitioners.” (Opp., p. 3). Again, Respondent
provides no cites to the Petition. In any event, the
formation of the disputed “agreement” was not a
“finding of fact” but a conclusion of law challenged
by Petitioners.
e. Respondent next claims that “Petitioners
similarly falsely state that 4SEMO was aware that
Petitioners were using 4SEMO’s marks
improperly.” (Opp., p. 4). Again, Respondent
provides no cites to the Petition, and Petitioners did
not so state. Rather, Petitioners merely stated that
“4SEMO was aware that SISS” was using the
LIFESAVER name, an undisputed contention
throughout the trial. (Petition, p. 4).
f. Respondent next claims that “the Petitioners
make the false, gratuitous, statement that no actual
confusion was ever shown.” (Opp., p. 4). But the
question of confusion involved a legal conclusion
(Opp., p. 4 n.1), the Petition challenges such
conclusions, and Petitioners correctly stated that no
evidence of actual confusion was shown.
g. Despite all of its criticisms, Respondent
• provides no citations to the record in support
of its allegations;

6
• labels conclusions of law (currently
challenged by Petitioners) as matters of fact;
• makes assertions that have no bearing on the
current issues; and
• makes assertions that
addressed in this Reply.

are

specifically

For these reasons and those further argued below,
the Court should grant certiorari on both of Petitioners’
Questions Presented.
II.

Petitioners did not waive their Questions
Presented, because both questions are
matters of pure law pertaining to
alternative grounds in support of federal
claims litigated below.

Without citing a single legal precedent, Respondent
asserts that this Court should deny certiorari on both
Questions Presented because they were purportedly
waived. (Opp., pp. 1, 6). But neither of the Questions
Presented were waived, as they both constitute purely
legal arguments under the core issues stridently
litigated in the District Court.
As this Court recognizes, “Parties are not
confined here to the same arguments which were
advanced in the courts below upon a federal
question there discussed.” Dewey v. City of Des
Moines, 173 U.S. 193, 198 (1899) (emphasis added).
More particularly, when the Question Presented is
“only an enlargement of the one mentioned in the
assignment of errors, or if it were so connected with it
in substance as to form but another ground or reason

7
for alleging the invalidity of the personal judgment, we
should have no hesitation in holding the
assignment sufficient to permit the question to
be now raised and argued.” Id. at 197-98 (emphasis
added). Hence, this Court has adopted an inclusive
approach to whether a Question Presented is
potentially waived.
More recently, this Court’s majority described the
Dewey Court’s analysis as “the fullest treatment of the
subject,” while noting that “we have recognized that it
often may be unclear whether the particular federal
question presented in this Court was raised or passed
upon below.” Illinois v. Gates, 462 U.S. 213, 219-20
(1983) (“We have not attempted, and likely would not
have been able, to draw a clear-cut line between cases
involving only an ‘enlargement’ of questions presented
below and those involving entirely new questions”).
Indeed, even the Seventh Circuit has stated, “when
a new argument supports a claim made before the
district court, we will usually address it.” Bew v. City
of Chicago, 252 F.3d 891, 895-96 (7th Cir. 2001) (citing
for support Yee v. City of Escondido, Cal., 503 U.S. 519,
534-35 (1992) (“Once a federal claim is properly
presented, a party can make any argument in support
of that claim; parties are not limited to the precise
arguments they made below”)). Notably, in Bew, the
Seventh Circuit recognized that when two separate
lines of argument both supported a core claim in the
courts below, and one was not previously presented,
neither was waived and both would be heard on appeal.
Id. The same reasoning applies with equal force in the
present case. See also Covertech Fabricating, Inc. v.

8
TVM Building Products, Inc., 855 F.3d 163 n.4 (3d Cir.
2017) (adopting McCarthy Test even when not raised
in District Court).
Here, contrary to Respondent’s assertions, two core
issues at trial concerned: (1) ownership of two common
law (i.e., unregistered) trademarks; and (2) the scope of
damages awarded for purported infringement of those
marks (See Doc. 277). The Seventh Circuit chose to
avoid a proper and thorough substantive analysis of
either core issue by adopting Respondent’s erroneous
assertions of waiver and instead provided cursory
“alternate” analyses. (See 7th Cir Opinion, Sec II, B-C).
But both of these core issues were, in fact,
aggressively argued and litigated in the District Court
(and in the Seventh Circuit) (See 7th Cir Doc. 26, pp. 814, 17-18), and the Questions Presented are issues of
pure law arising from and inextricably tied to those
core issues. The first Question Presented concerns use
of the McCarthy Test for determining trademark
ownership in a manufacturer-distributor relationship.
(Petition, p 6). The McCarthy Test provides an
alternate ground to resolve the core issue of trademark
ownership. Dewey, 173 U.S. at 198 (“Parties are not
confined here to the same arguments which were
advanced in the courts below upon a federal question
there discussed”); Bew, 252 F.3d at 895-96; Yee, 503
U.S. at 534-35.
Similarly, the second Question Presented concerns
the proper analysis to determine good faith of a junior
common law (i.e., unregistered) trademark user in a
geographic territory apart from the senior user’s
territory. (Petition, p. 20). When good faith is found,

9
the junior user will not be held liable for infringement
in the junior user’s territory. (Petition, p. 21). Thus,
the second Question Presented constitutes an alternate
ground to resolve the core issue of trademark damages.
Dewey, 173 U.S. at 198; Bew, 252 F.3d at 895-96; Yee,
503 U.S. at 534-35.
Moreover, a well-recognized exception to waiver
(even in the Seventh Circuit) arises when the issue
concerns a matter of pure law. See, e.g., Hively v. Ivy
Tech Community College of Indiana, 853 F.3d 339, 351
(7th Cir. 2017) (“We often exercise [our] discretion to
entertain arguments that turn on pure issues of law. [ ]
There was no waiver.”) (citing with approval Amcast
Indus. Corp. v. Detrex Corp., 2 F.3d 746, 750 (7th Cir.
1993)); see also Matter of Reese, 91 F.3d 37, 39 (7th Cir.
1996) (when party raised a pure issue of law, on which
factual development in the lower court would cast no
light, “the waiver could be forgiven.”). Here, both
Questions Presented were and are appropriate for
review because they concern issues of pure law over
which the Circuit Courts have split, and further factual
development would “cast no light” on the legal
questions.
Hence, the Seventh Circuit’s conclusion concerning
waiver not only conflicts with this Court’s and Seventh
Circuit precedent (see Dewey, 173 U.S. at 198; Bew, 252
F.3d at 895-96; Yee, 503 U.S. at 534-35), but is also
inconsistent with this Court’s and Seventh Circuit’s
precedential approach to waiver. Amcast, 2 F.3d at
750; Matter of Reese, 91 F.3d at 39. This Court should
therefore reject Respondent’s assertions of waiver and
grant certiorari on both Questions Presented.

10
III.

Respondent’s attempt to undermine the
Court’s consideration of the McCarthy Test
by parsing between “wholesale” and
“retail” trademarks and distribution is
without merit, as McCarthy’s treatise itself
draws no such distinctions.

Respondent’s argument as to the McCarthy Test is
riddled with misstatements and convoluted argument.
First, Respondent asserts (incorrectly) that Petitioners
argue the McCarthy Test is limited to “a wholesale
level trademark.” (Opp. p. 7). But Petitioners never
made any such assertion, and Respondent provides no
substantiating citation. Respondent then delves into
whether the 4SEMO-SISS relationship was an
exclusive distributorship involving a “wholesale level
trademark, or a trademark created after the
establishment of the relationship between the parties,”
and asserts—again without citation—that “the Courts
below” found that the marks were “retail marks”
created by Respondent before becoming an SISS dealer.
Id. But there is no such holding in the District Court’s
Amended Judgment.
From these defective premises, and ignoring the fact
that there was no contract defining the trademark
rights between 4SEMO and SISS, Respondent leaps to
the (erroneous) conclusion that the McCarthy Test does
not apply in this case and quotes a passage from
McCarthy for support. Id. at p. 8. Respondent,
however, is playing fast and loose with its use of the
McCarthy treatise. Respondent argues that “section
16:48 of the McCarthy treatise” makes it “expressly

11
clear” that the McCarthy Test does not apply here
because this case concerns a “retail level mark.” Id.
Respondent does not inform the Court that the cited
passage is only part of a “background” discussion
presented by Professor McCarthy. (McCarthy on
Trademarks §16:48). When viewing the entire section,
it is readily seen that Respondent’s cited passage is
simply the second of “Two Ownership Scenarios”
that set the stage for the McCarthy Test, and that both
scenarios are proper fodder for the Test. See id. (“In
either situation (1) or (2), a key issue is who was the
initial owner of the mark.”).
Respondent also argues that “dealers” cannot be
“distributors,” that the McCarthy Test does not cover
“dealers,” and that 4SEMO was a “dealer.” Id.
McCarthy, however, uses the terms interchangeably
and never draws a distinction between the terms.
(McCarthy on Trademarks §16:48, using “dealer” a
dozen times in place of “distributor”).
Similarly, Respondent draws a distinction between
“retail level” and “whole level” trademarks, but cites no
portion of the McCarthy treatise where this distinction
is made. (Opp., pp. 7-8). Hence, Respondent’s
argument is wholly without merit, and this Court
should grant certiorari.

12
IV.

Respondent’s attempt to undermine the
Court’s review of the good faith junior
trademark user doctrine by reiterating the
Seventh Circuit’s dismissive bootstrap
analysis merely underscores the defective
basis of Respondent’s argument.

In its final argument, Respondent merely
reiterates—without citing to any legal authority—the
Seventh Circuit’s circular, bootstrap conclusion that
there is no need for the McCarthy Test because initial
ownership of the marks was purportedly established by
the District Court, even though the McCarthy Test is
the proper tool to answer that very question and was
not used. (Opp., pp. 9-10). This defective rationale
adopted by the Seventh Circuit is one of the reasons
why this Court should grant certiorari. Respondent
adds no substance to the Seventh Circuit’s analysis,
and provides no legal citations to substantiate its
viability. Respondent also completely ignores the split
in the Circuits, which largely gives rise to granting
certiorari.
CONCLUSION
For the reasons stated in the Petition and in this
Reply, the Court should grant certiorari on the two
Questions Presented.

13
Respectfully submitted,
John L. Gilbert
Counsel of Record
Douglas D. Churovich
Timothy C. Sansone
Cody S. Hagan
SANDBERG PHOENIX & von GONTARD P.C.
600 Washington Ave., 15th Floor
St. Louis, MO 63101
314-231-3332
314-241-7604 (Fax)
jgilbert@sandbergphoenix.com
Attorneys for Petitioners

